Case: 18-16396, 11/21/2019, ID: 11506673, DktEntry: 64, Page 1 of 2

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MARY RIGGS, as Personal
Representative of the ESTATE OF
JONATHAN NEIL UDALL, for the
benefit of the ESTATE OF JONATHAN
NEIL UDALL, and PHILIP AND
MARLENE UDALL as Next of Kin and
Natural Parents of JONATHAN NEIL
UDALL, deceased,

No.

v.
AIRBUS HELICOPTERS, INC.,
Defendant-Appellant,

v.

MATTHEW HECKER; DANIEL
FRIEDMAN; BRENDA HALVORSON;
GEOFFREY EDLUND; ELLING B.
HALVORSON; JOHN BECKER;
ELLING KENT HALVORSON; LON A.
HALVORSON; SCOTT BOOTH;
PAPILLON AIRWAYS, INC., DBA
Papillon Grand Canyon Helicopters;
XEBEC LLC,
Defendants-Appellees.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-16396

D.C. No.
2:18-cv-00912-JCM-GWF
District of Nevada,
Las Vegas

ORDER
Plaintiff-Appellee,

NOV 21 2019

Case: 18-16396, 11/21/2019, ID: 11506673, DktEntry: 64, Page 2 of 2

Before: SCHROEDER, O’SCANNLAIN, and RAWLINSON, Circuit Judges.
Judge Rawlinson voted to deny the Petition for Rehearing or Rehearing En
Banc.
Judge Schroeder voted to deny the Petition for Rehearing and recommended
denying the Petition for Rehearing En Banc.
Judge O’Scannlain voted to grant the Petition for Rehearing and
recommended granting the Petition for Rehearing En Banc.
The full court has been advised of the Petition for Rehearing En Banc, and
no judge of the court has requested a vote.
The Petition for Rehearing or Rehearing En Banc, filed October 25, 2019, is
DENIED.

2

